          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Evaluation Report

The Department of Energy's Unclassified
Cyber Security Program – 2013




DOE/IG-0897                          October 2013
                                 Department of Energy
                                    Washington, DC 20585

                                        October 29, 2013

MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Evaluation Report on "The Department of Energy's
                         Unclassified Cyber Security Program – 2013"

BACKGROUND

Cyber security threats are a major concern for all Federal entities, including the Department of
Energy. Several recent cyber attacks against the Department's networks and systems have
underscored the importance and urgency of a strong cyber security program. For instance, a
recent attacker exploited a known vulnerability resulting in the compromise of personally
identifiable information for over 100,000 current and former employees, employee dependents
and contractors.

The Federal Information Security Management Act of 2002 (FISMA) established the
requirement for Federal agencies to develop, implement and manage agency-wide information
security programs, and provide acceptable levels of security for the information and systems that
support the operations and assets of the agency. Systems that support Federal missions and are
funded by the Department but managed or operated by contractors also fall under the purview of
FISMA. As part of our responsibilities under FISMA, the Office of Inspector General conducts
an annual independent evaluation to determine whether the Department's unclassified cyber
security program adequately protected its unclassified data and information systems. This report
documents the results of our evaluation for Fiscal Year (FY) 2013.

RESULTS OF EVALUATION

The Department had taken a number of positive steps over the past year to correct cyber security
weaknesses related to its unclassified information systems. This included corrective actions to
resolve 28 of the 38 conditions we identified during our FY 2012 evaluation. In addition, the
Department established a senior leadership council to increase high-level visibility of cyber-
related issues.

In spite of these efforts, we found that significant weaknesses and associated vulnerabilities
continued to expose the Department's unclassified information systems to a higher than
necessary risk of compromise. While weaknesses identified as a result of Office of Inspector
General vulnerability scanning decreased somewhat during our FY 2013 evaluation, those
related to general information technology controls increased. Our testing revealed various
weaknesses related to security reporting, access controls, patch management, system integrity,
                                                2


configuration management, segregation of duties and security management. In total, we
discovered 29 new weaknesses and confirmed that 10 weaknesses from the prior year's review
had not been resolved. These problems were spread across 11 of the 26 Department locations
where we performed testing. Specifically:

   •   We discovered 11 access control deficiencies at 8 facilities related to inadequate
       management of user access privileges, inappropriate granting of physical access to
       sensitive facilities, failure to implement multi-factor authentication for remote access and
       use of default or easily guessed login credentials on servers or network services.

   •   At five locations, we determined that weaknesses existed related to vulnerability
       management of desktop computers and network systems. These findings were primarily
       focused on vulnerable operating systems and applications that were missing security
       updates and/or patches. Weaknesses of this sort directly contributed to the recent
       compromise and exfiltration of personally identifiable information on over 100,000
       individuals from one of the Department's systems.

   •   Weaknesses related to system integrity of web applications, including improper
       validation of input data and unsecured user authentication information that support
       financial management and general support functions, were identified at six locations.

   •   We identified five weaknesses related to configuration management at three locations.
       The weaknesses included failure to develop or document an organizational configuration
       management policy, inconsistent implementation of configuration change control
       procedures and inadequate management of application change control processes.

   •   At one site, we found weaknesses related to segregation of duties. Specifically,
       established procedures governing the roles and responsibilities assigned to system users
       were not always followed.

   •   Finally, we identified several security management program weaknesses at three sites
       associated with ensuring that all employees had taken security training, cyber security
       incidents were reported, a system inventory was maintained, and audit logs were
       reviewed.

Notably, despite requirements established in FISMA implementing guidance promulgated by the
Office of Management and Budget, the Department had not included contractor–owned/operated
systems when reporting performance metrics related to the health of its cyber security program to
the Department of Homeland Security. Specifically, the Department did not report detailed
security information for more than 450 systems operated by its contractors. Given the fact that
the majority of the vulnerabilities we discovered during this review and in past years involved
contractor-operated systems, such disclosures are both relevant and necessary.

The weaknesses we identified occurred, in part, because Department elements had not ensured
that policies and procedures were fully developed and implemented to meet all necessary cyber
security requirements. In addition, the Department continued to operate a less than fully
effective performance monitoring and risk management program. For example, locations
                                                3


reviewed had not always followed program or site-level patch management policies and
procedures to ensure security updates were applied in a timely manner. Programs and sites also
had not consistently followed existing policies related to terminating or disabling user access
when no longer needed. Furthermore, we found that 24 of the 38 (63 percent) weaknesses
identified in our prior year review were not tracked in the Department's Plan of Actions and
Milestones. Absent improvements to its unclassified cyber security program, the Department's
information and systems will continue to be at a higher than necessary risk of compromise. As
such, we made several recommendations that, if fully implemented, should help the Department
strengthen its cyber security program.

Due to the sensitive nature of the vulnerabilities identified during our evaluation, specific
information and site locations have been omitted from this report. Site and program officials have
been provided with detailed information regarding the vulnerabilities that were identified at their
sites and, in many cases, initiated corrective actions to correct the identified deficiencies.

We are conducting a criminal investigation and a separate special inquiry into the July 2013
intrusion and theft of personally identifiable information from the Department. The results of our
inquiry will be reported separately.

MANAGEMENT REACTION

Management concurred with the report's findings and recommendations and had taken and/or
initiated corrective actions. Management's comments and our response are summarized and more
fully discussed in the body of the report. Management's formal comments are included in
Appendix 3.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Nuclear Security
    Acting Under Secretary for Science and Energy
    Acting Under Secretary for Management and Performance
    Chief Information Officer
    Acting Chief Financial Officer
    Director, Office of Management
EVALUATION REPORT ON THE DEPARTMENT OF ENERGY'S
UNCLASSIFIED CYBER SECURITY PROGRAM – 2013


TABLE OF
CONTENTS

Security Controls and Risk Management

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................8

Management Response and Auditor Comments ..............................................................................9

Appendices

1. Objective, Scope and Methodology .........................................................................................10

2. Related Reports ........................................................................................................................12

3. Management Comments ..........................................................................................................15
THE DEPARTMENT OF ENERGY'S UNCLASSIFIED CYBER SECURITY
PROGRAM – 2013

Program Improvements

The Department of Energy (Department), including the National Nuclear Security
Administration (NNSA), had taken a number of steps over the past year to address previously
identified cyber security weaknesses and enhance its unclassified cyber security program. In
particular:

    •    The Department had taken corrective action to resolve or mitigate a number of
         previously identified vulnerabilities at 11 locations. Actions taken addressed weaknesses
         related to access controls, configuration and vulnerability management, system integrity,
         incident reporting and contingency planning. In fact, the number of weaknesses
         identified during our current review that were attributable to technical system
         vulnerabilities such as patch management had decreased by about one-third when
         compared to last year's review.

    •    The Department established an executive-level Cyber Council as the principal forum for
         coordination of its cyber-related activities across the enterprise and for consideration of
         issues requiring a decision by the Secretary of Energy. Such activities addressed
         protecting the enterprise, including the Department's management and operating
         contractors, from a range of cyber threats, bolstering the Government's capabilities to
         address such threats, and improving cyber security in the electric power, oil and natural
         gas subsectors. Membership in the Council consisted of executive-level leadership from
         the Department's program and staff offices.

    •    The Department's programmatic elements and field sites had made improvements in the
         implementation of Homeland Security Presidential Directive-12 and the development of
         a risk management approach for cyber security programs. For example, Department
         Order 206.2, Identity, Credential, and Access Management, was issued in February 2013,
         in response to our report on The Department of Energy's Implementation of Homeland
         Security Presidential Directive 12 (DOE/IG-0860, February 2012). This directive
         promulgated policy related to the issuance of credentials for uncleared contractors; an
         issue identified in our February 2012 report. In addition, programs and sites continue to
         work towards effective implementation of a risk management approach.

Although the actions taken by the Department over the last year should help improve its cyber
security position, our current evaluation found that programs and sites must continue to remain
cognizant of constantly changing and emerging threats and the potential impact these issues pose
to unclassified information systems and data.

Security Controls and Risk Management

The current evaluation identified an area of concern regarding the completeness of the
Department's performance metrics reporting to the Department of Homeland Security related to
the health of its cyber security program. Although the Department had made progress correcting



Page 1                                                                           Details of Finding
deficiencies we identified in our Fiscal Year (FY) 2012 evaluation, additional effort is needed to
enhance its unclassified cyber security program and further mitigate the risks to its information
and systems. Specifically, while the number of findings issued as a result of our vulnerability
scanning decreased from our FY 2012 review, we identified an increased number of weaknesses
related to general information technology controls than in past years.

Our review of Under Secretary of Nuclear Security, Under Secretary for Science and Energy
and Under Secretary for Management and Performance organizations identified various
weaknesses related to security reporting, access controls, patch management, system integrity of
web applications, configuration management, segregation of duties and security management.
Based on the results of our FY 2013 evaluation, 29 new weaknesses and 10 unresolved
weaknesses from the prior year's review were identified at 11 of 26 locations included in our
current year evaluation.

                                       Security Reporting

The Department's cyber security performance metric reporting, which is provided to the
Department of Homeland Security under the requirements of the Federal Information Security
Management Act of 2002, did not include information related to Department funded, contractor
managed/operated information systems. The Department reported in FY 2012 that 469 of its
649 (72 percent) information systems belong to or are managed by contractors. However, the
information provided to the Department of Homeland Security in response to the FY 2012
performance metrics stated that it was based only on Federal systems. Thus, the Department
underreported the results of its cyber security program in seven critical areas, including asset
management, configuration and vulnerability management, identity and access management and
data and boundary protection. This resulted in reduced visibility of the level of security over the
vast majority of the Department's information systems, limiting the ability to implement an
effective complex-wide risk management process. While a Department official told us that
security information for contractor systems would be reported beginning in FY 2013, we were
unable to confirm whether this had occurred at the time of our review.

                                         Access Controls

Although the Department had taken action to correct a number of prior year access control
weaknesses, we continued to identify issues related to logical and physical access controls at
numerous locations. Access controls consist of both physical and logical measures designed to
protect information resources from unauthorized modification, loss or disclosure. Controls must
be strong and functional to ensure that only authorized individuals can gain access to networks
and systems or the facilities in which they are located. During our FY 2013 review, we
identified 12 access control deficiencies at 8 locations. In particular:

   •   Eight account management weaknesses were identified at six locations, including
       inadequately managed user access privileges and failure to perform periodic management
       reviews of user accounts. For instance, access privileges at six locations were not
       appropriately established, modified, reviewed, disabled and/or removed. All six locations
       failed to remove terminated or inactive user accounts in a timely manner. One site had

Page 2                                                                          Details of Finding
       not disabled all inactive users who had not logged into the system within the past 60 days
       despite the requirement to do so. At another site, user accounts with elevated privileges
       remained active even though users had not logged in for more than 3 years.

   •   One site had inappropriately granted physical access to a data center where information
       systems were maintained. Specifically, an individual was granted access to the data
       center when such access was not required to perform job duties. The individual had not
       accessed the data center, and management took corrective action to remove this access
       when we brought this matter to its attention.

   •   Although one site had implemented tools necessary to ensure that remote access to its
       network and information systems was secure or properly protected, several remote access
       weaknesses were identified at the site. We found that multi-factor authentication for
       privileged users had not been implemented, and full disk encryption security measures
       had not been activated on mobile computers, including some that could potentially
       contain sensitive data such as personally identifiable information. Furthermore, five
       remote access accounts belonging to terminated users had not been properly disabled in a
       timely manner.

   •   One site had 11 network server systems and devices that were configured with default or
       easily guessed login credentials or that required no authentication for access. These
       configuration vulnerabilities could have allowed an attacker to obtain unauthorized
       access to the affected devices and the data stored on them. Furthermore, some of the
       vulnerabilities could have allowed malicious programs to attack other systems on the
       internal network. Although the site had updated policies and procedures designed to
       address the identified weakness, we noted that implementation of the policies and
       procedures was not effective.

   •   One site maintained seven servers/systems running network services that were configured
       with open access settings that could have allowed remote systems to obtain access to data
       on the system without the use of login credentials. Sensitive financial data and personnel
       payroll information was accessible through one of those servers. Once the site became
       aware of the issue, management took corrective action to restrict access and remove
       sensitive data from servers that had open access settings.

                                         Patch Management

The Department had made improvements in its patch management program since our prior year
review. However, we continued to identify issues related to patch management of desktop
computers and network systems at six locations. The weaknesses consisted of varying degrees
of vulnerable applications and operating systems missing security updates and/or patches,
including 3 critical and more than 200 high-risk vulnerabilities. Site and management officials
told us that they had accepted the risks associated with many of the vulnerabilities; however,
they could not always provide documentation to support a risk acceptance decision. We also
noted that in a number of cases, compensating controls were insufficient to address the observed
vulnerabilities. In particular:

Page 3                                                                        Details of Finding
   •   Scans of desktop systems at 17 locations revealed that 965 of 2,357 (41 percent) systems
       were running operating systems and/or client applications without current security
       patches for known vulnerabilities. The vulnerable client applications included media
       players and productivity and remote access software and were missing security patches
       for known vulnerabilities that had been released more than 30 days prior to our testing.
       At one site, nearly every desktop system scanned contained outdated applications. Our
       testing of workstations targeted users with elevated privileges and was a small subset of
       all workstations at the sites reviewed. Therefore, we consider the results of our testing to
       be very conservative.

   •   More than 100 network systems tested were running operating systems and application
       support platforms without current security patches or security configurations for known
       vulnerabilities that were released more than 30 days prior to testing. We also identified
       23 network server systems running operating system versions that were no longer
       supported by the vendor.

The danger of unpatched systems was demonstrated in July 2013, when an unpatched application
provided the vector for attackers to breach a system at Headquarters containing significant
amounts of sensitive information. As a result, personally identifiable information for more than
100,000 current and former employees, employee dependents and contractors was exfiltrated.
We are conducting a criminal investigation into this matter and are in the process of performing a
special inquiry into the circumstances that contributed to the event. We will issue a separate
report detailing the results of our special inquiry.

                             System Integrity of Web Applications

We identified eight weaknesses related to system integrity of web applications at six locations.
Our performance testing found web applications – including financial, human resources and
general support applications – that did not perform validation procedures to determine whether
the form and content of input data was validated against an application's database. Effective
validation procedures can ensure that changes made to information and programs are only
allowed in a specified and authorized manner and that the system's operation is not impaired by
deliberate or inadvertent unauthorized manipulation, such as software flaws and malicious code.
We found:

   •   At six locations, applications that accepted malicious input data could be used to launch
       attacks against legitimate users, resulting in unauthorized access. Such attacks, referred
       to as cross-site scripting, could result in a compromise of legitimate users' workstations
       and application login credentials. Notably, weaknesses at three of the six locations were
       initially identified during prior year reviews, but had not been fully remediated and were
       still considered vulnerable to the aforementioned attacks. Upon notification of our
       findings, some sites had initiated and/or completed corrective actions.

       Two locations stored unsecured user authentication information on the network. These
       identifiers were accessible to any web server within the same network. Thus, unsecured
       user authentication information stored in a user's web browser could be exposed to

Page 4                                                                         Details of Finding
       attackers or unauthorized users through attacks executed against any web server within
       the network. These weaknesses could also allow an attacker to compromise legitimate
       users' workstations and application login credentials.

Unsecured web applications, such as those identified during our testing, increase the risk of
malicious attacks that could result in unauthorized access to application functionality and
sensitive data stored in the application.

                                   Configuration Management

We identified five weaknesses related to configuration management of information systems at
three locations. The weaknesses involved inadequate implementation of configuration change
control procedures, failure to develop standard baseline configurations for all systems and
insufficient documentation of application change controls. Specifically:

   •   At two sites, we found that configuration change control procedures had not been
       implemented consistently even though procedures had been documented. For example,
       we identified 15 changes to a firewall configuration at one site that were not in
       accordance with configuration management plan procedures. In addition, officials at
       another site had not documented, retained or reviewed information system changes. At
       that site, we were unable to obtain or review changes implemented in FY 2013. As such,
       we could not determine whether changes were adequately documented, tested and
       approved prior to implementation.

   •   One site had not developed or documented an organizational configuration management
       policy and related procedures for managing hardware and software. Even though the site
       maintained standard baseline configurations for centrally managed operating systems and
       applications, we found that a minimum security configuration policy and requirements
       for non-centrally managed systems had not been established or documented.

   •   One site had weaknesses related to managing its application change control process.
       Although the site used an application to track and monitor configuration changes, we
       found that change requests for the application had not been documented and maintained.
       Rather, all change requests had been made verbally to the developer, and no change
       control forms had been completed. When informed of our findings, management took
       corrective actions to update plans and procedures.

                                      Segregation of Duties

We identified a weakness related to segregation of duties at one location. Specifically, several
individuals were assigned responsibilities that conflicted with the organization's documented
separation of duties rules. As an example, one individual was able to enter purchase order
information and had accounts payable invoicing rights. In total, 12 individuals had been
assigned roles that could have allowed an increased risk of unauthorized activities without
collusion when processing transactions. When informed of our findings, management took
corrective action to address the users' conflicting roles.

Page 5                                                                         Details of Finding
                                      Security Management

We identified several security management weaknesses at three locations related to ensuring all
employees had taken security training, all cyber security incidents were reported, system
inventories were maintained and audit logs were reviewed. In particular:

   •   Two locations had not provided adequate security training to all employees. For
       example, at one site, approximately 500 users had not taken a security training course
       even though it was required by site-level policy. At another site, officials had not
       identified individuals required to take specialized security training and ensured that such
       training had occurred.

   •   Two sites had weaknesses related to incident response, asset management and audit
       logging and monitoring. Specifically, we found that lost or potentially stolen information
       technology equipment at one site had not been properly reported by the site to the
       Department's Joint Cyber Security Coordination Center. Another location had not
       maintained a complete inventory of all information systems and had not reviewed system
       logs to identify anomalies in access or activity.

Policies and Procedures, Performance Monitoring and Risk Management

The weaknesses identified occurred because Department elements had not ensured that policies
and procedures were fully developed and implemented to meet all necessary cyber security
requirements. In addition, the Department continued to operate a less than fully effective
performance monitoring and risk management program.

                                     Policies and Procedures

Consistent with our prior year reviews, sites developed cyber security policies and procedures
that were inadequate or did not always satisfy Federal or Department security requirements. For
instance, we noted that policies and procedures at certain locations did not clearly designate the
responsible parties for reporting lost or stolen laptops, resulting in security incidents not being
reported in a timely manner. Similar issues were identified in our Follow-up Audit of the
Department's Cyber Security Incident Response Program (DOE/IG-0878, December 2012).

Even when in place, policies and procedures were not always fully implemented. For instance,
locations reviewed had not always followed program or site-level patch management policies
and procedures to ensure security updates were applied in a timely manner. Furthermore,
programs and sites had not consistently followed existing policies related to terminating or
disabling user access when no longer needed. In one instance, although the site's policies
required deletion or deactivation of user accounts that had been inactive for 180 days, we found
that more than 100 accounts were active for more than 6 months even though they were unused.
In addition, we found that some sites had updated policies and procedures related to security
training, but these changes had not always been fully implemented to ensure all users were
trained.


Page 6                                                                          Details of Finding
                         Performance Monitoring and Risk Management

The Department continued to operate a less than fully effective performance monitoring and risk
management program. In particular, many of the programs and sites reviewed had not fully
implemented an effective process to ensure security patch management processes for desktop
computers, network devices and applications were working as designed. For instance, we found
that vulnerability management programs at numerous locations were not always effective in
remediating missing security updates for critical vulnerabilities in operating systems and
applications installed on network systems and/or workstations. In addition, many of the web
application vulnerabilities we identified occurred because programs and sites had not
implemented effective processes to ensure that controls were in place to identify and prevent
application integrity issues. At two sites where prior year weaknesses remained, input data
validation safeguards had not been effectively developed and implemented as part of application
functionality. As the Department continues its efforts to implement a cyber security continuous
monitoring program, it is essential that adequate performance monitoring mechanisms are in
place.

Contrary to Federal requirements, we also found that plans of action and milestones were not
always effectively used as a monitoring tool to report, prioritize and track cyber security
weaknesses. The use of plans of action and milestones is an important mechanism to identify
and manage progress towards eliminating gaps between required security controls and those that
are actually in place. However, we found:

    •    Although many of the sites reviewed tracked weaknesses at a local level, cyber security
         deficiencies identified during our FY 2012 review were not always included. In
         particular, 22 of 38 (58 percent) weaknesses identified last year were not tracked in the
         plans of action and milestones submitted to the Office of the Chief Information
         Officer. As a result, these issues were not reported to the Office of Management and
         Budget, as required. Perhaps more importantly, the Department's Chief Information
         Officer did not have visibility over the critical weaknesses in the Department's cyber
         security program. We also noted that plans of action and milestones did not contain all
         cyber security weaknesses identified in numerous security related Office of Inspector
         General reports.

    •    As compared to our FY 2012 evaluation, we noted an increase in the number of open
         milestones in the plans of actions and milestones that were beyond the projected
         remediation date. Specifically, we determined that 467 of 921 (51 percent) open
         milestones were beyond the projected remediation date, including 133 open milestones
         that were at least 1 year beyond the estimated remediation date.

We also identified several concerns related to the ability to implement risk management
practices. For example, one site had not completed documentation supporting its risk
management process and acceptance of risk associated with web application vulnerabilities. The
site also had not documented residual risk, business justifications and mitigations for
vulnerabilities that were identified by system scanning tools. In addition, we found that
Department officials misunderstood a Department of Homeland Security memorandum that led

Page 7                                                                          Details of Finding
them to report only limited information on contractor systems, resulting in reduced visibility of
security over the vast majority of the Department's information systems and limiting the ability
to implement an effective complex-wide risk management process. According to a Department
official, security information for contractor systems will be reported beginning in FY 2013;
however, at the time of our review, we were unable to confirm whether this had occurred. As the
Department continues its efforts to rely on contractor assurance processes for monitoring the
effectiveness of programs, it is essential that adequate performance monitoring mechanisms are
in place.

Risk to Information and Systems

As in years past, we note that without changes to improve the operation of its cyber security
program, including implementing effective policies and procedures and enhancing performance
monitoring, the Department's information systems and data will continue to be at risk. Recently,
this point was made clear when an unpatched Department application was exploited, allowing
attackers to breach a Headquarters' system and exfiltrate personally identifiable information for
more than 100,000 current and former Department employees, employee dependents and
contractors.

In addition, without knowledge of security over contractor operated systems, the Department's
information and systems will continue to be at risk as threats constantly change. Although
programs and sites had implemented mitigating controls in certain instances, we found that the
weaknesses identified during our review could potentially be exploited by attackers. As such,
effective remediation of the weaknesses identified during our review should help the Department
strengthen its cyber security program. The remediation process could be further improved
through effective implementation of the plan of actions and milestones process. Comprehensive
plan of actions and milestones would allow officials to identify security risks and determine what
type of action should be taken to address them in an efficient and prioritized manner.

RECOMMENDATIONS

To improve the Department's unclassified cyber security program and to correct the weaknesses
identified in this report, we recommend that the Under Secretary of Nuclear Security, Under
Secretary for Science and Energy and Under Secretary for Management and Performance, in
coordination with the Department's and National Nuclear Security Administration's Chief
Information Officers, where appropriate:

   1. Correct, through the implementation of appropriate controls, the weaknesses identified
      within this report;

   2. Ensure that policies and procedures are developed, as needed, and are implemented in
      accordance with Federal and Department requirements to adequately secure systems and
      applications;

   3. Ensure that effective performance monitoring practices are implemented to assess overall
      performance for protecting information technology resources;

Page 8                                                                     Recommendations
   4. Fully develop and use plans of actions and milestones to prioritize and track remediation
      of all cyber security weaknesses requiring corrective actions; and

   5. Ensure that the Department includes information for both Federal and contractor systems
      when reporting the status of performance metrics annually to the Department of
      Homeland Security.

MANAGEMENT RESPONSE

Department management concurred with each of the report's recommendations and indicated that
corrective actions would be identified and tracked in the appropriate plans of action and
milestones. For instance, the Office of the Chief Information Officer indicated that it is piloting
an automated tool to provide a centralized repository for tracking program and system-level
cyber security weaknesses and remediation activities. In addition, management commented that
it enhanced performance monitoring activities and will include both Federal and contractor
compliance information as part of the FY 2013 reporting to the Office of Management and
Budget. In separate comments, NNSA management concurred with the recommendations and
planned to take corrective actions to resolve the weaknesses identified in our report.

AUDITOR COMMENTS

Management's comments were responsive to our recommendations. Management's comments
are included in Appendix 3.




Page 9                                      Management Response and Auditor Comments
Appendix 1

                      OBJECTIVE, SCOPE AND METHODOLOGY
OBJECTIVE

To determine whether the Department of Energy's (Department) unclassified cyber security
program adequately protected its data and information systems.

SCOPE

We conducted the evaluation from February 2013 to October 2013 at 26 Department locations
under the responsibility of the Under Secretary of Nuclear Security, Under Secretary for Science
and Energy and the Under Secretary for Management and Performance. The focus of our
evaluation was the Department's unclassified cyber security program. This work involved a
limited review of general and application controls in areas such as security management, access
controls, configuration management, segregation of duties and contingency planning. Where
vulnerabilities were identified, the evaluation did not include a determination of whether the
vulnerabilities were actually exploited.

METHODOLOGY

To accomplish the audit objective, we:

   •   Reviewed Federal regulations and Department directives pertaining to information and
       cyber security.

   •   Reviewed applicable standards and guidance issued by the National Institute of Standards
       and Technology for the planning and management of system and information security.

   •   Obtained and analyzed documentation from Department programs and selected sites
       pertaining to the planning, development and management of cyber security related
       functions such as cyber security plans, plans of action and milestones and budget
       information.

   •   Held discussions with officials from the Department and the National Nuclear Security
       Administration.

   •   Assessed controls over network operations and systems to determine the effectiveness
       related to safeguarding information resources from unauthorized internal and external
       sources.

   •   Evaluated selected Headquarters' offices and field sites in conjunction with the annual
       audit of the Department's Consolidated Financial Statements, utilizing work performed
       by KPMG, LLP (KPMG), the Office of Inspector General's contract auditor. Office of
       Inspector General and KPMG work included analysis and testing of general and
       application controls for systems, as well as vulnerability and penetration testing of
       networks.


Page 10                                                  Objective, Scope and Methodology
Appendix 1 (continued)

   •   Evaluated and incorporated the results of other cyber security review work performed by
       the Office of Inspector General, KPMG, the U.S. Government Accountability Office and
       the Office of Health, Safety and Security's Office of Enforcement and Oversight.

We conducted this evaluation in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
objective. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our objective. Accordingly, we assessed significant internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective. In
particular, we assessed the Department's implementation of the GPRA Modernization Act of
2010 and determined that it had established performance measures for its information and cyber
security program. Because our evaluation was limited, it would not necessarily have disclosed
all internal control deficiencies that may have existed at the time of our audit. We did not solely
rely on computer-processed data to satisfy our objective. However, computer assisted audit tools
were used to perform scans of various networks and drives. We validated the results of the scans
by confirming the weaknesses disclosed with responsible on-site personnel and performed other
procedures to satisfy ourselves as to the reliability and competence of the data produced by the
tests. In addition, we confirmed the validity of other data, when appropriate, by reviewing
supporting source documents.

The Office of the Chief Information Officer and the National Nuclear Security Administration
both waived an exit conference.




Page 11                                                    Objective, Scope and Methodology
Appendix 2

                                    RELATED REPORTS

Office of Inspector General Reports

   •   Audit Report on Management of the Naval Reactors' Cyber Security Program (DOE/IG-
       0884, April 2013). The Office of Inspector General (OIG) found that, although the Naval
       Reactors Program (Naval Reactors) had made a number of enhancements to its cyber
       security program over the past year, we identified weaknesses related to vulnerability
       management, access controls, incident response and security awareness training that
       could negatively affect its security posture. The weakness identified occurred, in part,
       because Naval Reactors had not ensured that necessary cyber security controls were fully
       implemented. Specifically, officials had not fully developed and/or implemented policies
       and procedures related to vulnerability management, access controls, incident response
       and cyber security training. In addition, Naval Reactors had not always effectively
       utilized plans of action and milestones to track, prioritize and remediate cyber security
       weaknesses.

   •   Audit Report on Management of Los Alamos National Laboratory's Cyber Security
       Program (DOE/IG-0880, February 2013). The OIG found that Los Alamos National
       Laboratory (Los Alamos) had taken steps to address concerns regarding its cyber security
       program raised in prior evaluations. However, we identified continuing concerns related
       to Los Alamos' implementation of risk management, system security testing and
       vulnerability management practices. The issues identified occurred, in part, because of a
       lack of effective monitoring and oversight of Los Alamos' cyber security program by the
       Los Alamos Site Office, including approval of practices that were less rigorous than those
       required by Federal directives. In addition, we found that Los Alamos' Information
       Technology Directorate had not followed National Nuclear Security Administration
       policies and guidance for assessing system risk and had not fully implemented the
       Laboratory's own policy related to ensuring that scanning was conducted to identify and
       mitigate security vulnerabilities in a timely manner.

   •   Report on Management Letter on the Audit of the Department of Energy's Consolidated
       Financial Statements for Fiscal Year 2012 (DOE/OAS-FS-13-08, January 2013). Based
       on the audit of the consolidated financial statements of the Department of Energy
       (Department) for the year ended September 30, 2012, we found unclassified network and
       information system security to be an area where there were significant deficiencies in
       internal controls. We noted network vulnerabilities and weaknesses in access and other
       security controls in the Department's unclassified computer information systems. The
       identified weaknesses and vulnerabilities increased the risk that malicious destruction or
       alteration of data or unauthorized processing could occur. The Department should fully
       implement policies and procedures to improve its network and information systems
       security.




Page 12                                                                        Related Reports
Appendix 2 (continued)

  •   Audit Report on Follow-up Audit of the Department's Cyber Security Incident
      Management Program (DOE/IG-0878, December 2012). The OIG found that although
      certain actions had been taken in response to our prior audit report, we identified
       several issues that limited the efficiency and effectiveness of the Department's cyber
      security incident management program and adversely impacted the ability of law
      enforcement to investigate incidents. The issues identified were due, in part, to the lack
      of a unified, Department-wide cyber security incident management strategy. In addition,
      changes to the Department's Incident Management policy and guidance may have
      adversely impacted overall incident management and response by law enforcement and
      counterintelligence officials. Also, we found that incident reporting to law enforcement
      was not always timely or complete, which hindered investigations into events. In the
      absence of an effective enterprise-wide cyber security incident management program, a
      decentralized and fragmented approach has evolved that places the Department's
      information systems and networks at increased risk.

  •    Evaluation Report on The Department's Unclassified Cyber Security Program – 2012
      (DOE/IG-0877, November 2012). The OIG found that the Department had taken steps
      over the past year to address previously identified cyber security weaknesses and enhance
      its unclassified cyber security programs. The overall number of identified vulnerabilities
      decreased from 56 weaknesses in the prior year's evaluation to 38 in 2012. Although the
      number of vulnerabilities identified was reduced, the types and severity of weaknesses
      continued to persist and remained consistent with prior years. The weaknesses involved
      problems with access controls, vulnerability management, integrity of web applications,
      planning for continuity of operations and change control management. The weaknesses
      identified occurred, in part, because Department elements had not ensured that cyber
      security requirements were fully developed and implemented. In addition, programs and
      sites had not always effectively monitored performance to ensure that appropriate
      controls were in place.

  •   Audit Report on Management of Western Area Power Administration's Cyber Security
      Program (DOE/IG-0873, October 2012). The OIG found the Western Area Power
      Administration had made a number of enhancements to its cyber security program
      since OIG's prior review. However, several weaknesses related to vulnerability
      management and security controls existed that could negatively impact its cyber security
      posture. Specifically, Western Area Power Administration had not always implemented
      cyber security controls designed to address known system vulnerabilities and ensured that
      access controls designed to protect its information systems and data were in place. The
      weaknesses identified occurred, in part, because Western Area Power Administration had
      not always implemented policies and procedures related to vulnerability and patch
      management. Specifically, while cyber security officials conducted regular scans on two
      of the systems reviewed, they did not always identify and correct known vulnerabilities.
      In addition, officials had not fully implemented policies and procedures related to
      managing access to systems and information, including deactivating and/or disabling
      unneeded user accounts in a timely manner.




Page 13                                                                       Related Reports
Appendix 2 (continued)

   •   Special Report on Management Challenges at the Department of Energy –Fiscal Year
       2013 (DOE/IG-0874, October 2012). Based on the work performed during Fiscal Year
       (FY) 2012, the OIG identified nine areas, including cyber security, which remained a
       management challenge for FY 2013.

   •   Audit Report on The Department of Energy's Implementation of Homeland Security
       Presidential Directive 12 (DOE/IG-0860, February 2012). The OIG found that, despite 7
       years of effort and expenditures of more than $15 million, the Department had yet to
       meet all Homeland Security Presidential Directive 12 (HSPD-12) requirements. In
       particular, the Department had not fully implemented physical and logical access controls
       in accordance with HSPD-12. Furthermore, the Department had not issued HSPD-12
       credentials to many uncleared contractor personnel at its field sites. We noted what we
       considered to be a lack of a coordinated approach among programs and sites related to
       implementation of HSPD-12 requirements. In particular, we found that guidance
       provided by management was fragmented and often inadequate to meet the goals of the
       initiative. In addition, ongoing efforts suffered from lack of coordination among
       programs and sites to determine the cost, scope and schedule of work required to
       implement HSPD-12 requirements. Several programs and sites visited also had not
       established budgets in an attempt to obtain funding to support HSPD-12 activities.

   •   Audit Report on The Department's Configuration Management of Non-Financial Systems
       (DOE/OAS-M-12-02, February 2012). The OIG found the Department had not
       implemented sufficient controls over its configuration management processes for non-
       financial systems. Specifically, security patches designed to mitigate system
       vulnerabilities had not been applied in a timely manner for desktops, applications and
       servers. In addition, organizations and sites reviewed had not always followed effective
       procedures to ensure that changes to systems and applications were properly tested and
       approved prior to implementation.

Government Accountability Office Reports

   •   CYBERSECURITY: A Better Defined and Implemented National Strategy Is Needed to
       Address Persistent Challenges (GAO-13-462T, March 2013)

   •   HIGH-RISK SERIES: An Update (GAO-13-283 and GAO-13-359T, February 2013)

   •   CYBERSECURITY: National Strategy, Roles, and Responsibilities Need to Be Better
       Defined and More Effectively Implemented (GAO-13-187, February 2013)

   •   IT SUPPLY CHAIN: National Security-Related Agencies Need to Better Address Risks
       (GAO-12-361, March 2012)

   •   SOCIAL MEDIA: Federal Agencies Need Policies and Procedures for Managing and
       Protecting Information They Access and Disseminate (GAO-11-605, June 2011)



Page 14                                                                       Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 15                            Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
                                                                    IG Report No. DOE/IG-0897

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
